OFFICE OF INSPECTOR GENERAL

AUDIT OF USAID’S OFFICE OF
FOREIGN DISASTER
ASSISTANCE ACTIVITIES IN
ZIMBABWE

AUDIT REPORT NO. 4-613-12-008-P
MAY 10, 2012




PRETORIA, SOUTH AFRICA
Office of Inspector General


May 10, 2012

MEMORANDUM

TO:                  Bureau for Democracy, Conflict and Humanitarian Assistance, Office of Foreign
                     Disaster Assistance Director, Mark Bartolini

FROM:                Regional Inspector General/Pretoria, Christine M. Byrne /s/

SUBJECT:             Audit of USAID’s Office of Foreign Disaster Assistance Activities in Zimbabwe
                     (Report No. 4-613-12-008-P)

This memorandum transmits our final report on the subject audit. We have considered
management’s comments on the draft report and have incorporated them into the final report,
as appropriate. They have been included in their entirety in Appendix II.

Management’s comments indicate that corrective actions are planned for both
recommendations. Therefore, we consider that management decisions have been reached.
Please provide the Office of Audit Performance and Compliance Division with the necessary
documentation to achieve final action on the recommendations.

I want to express my sincere appreciation for the cooperation and courtesy extended to my staff
during the audit.




U.S. Agency for International Development
100 Totius Street
Groenkloof X5, 0181
Pretoria, South Africa
www.usaid.gov/oig
CONTENTS
Summary of Results ................................................................................................................. 1

Audit Finding ............................................................................................................................. 5

     The Office of Foreign Disaster Assistance Does Not Have a
     Systematic Way to Determine Whether Its Activities Are Working ......................................... 5

Evaluation of Management Comments.................................................................................... 8

Appendix I—Scope and Methodology ..................................................................................... 9

Appendix II—Management Comments .................................................................................. 11
SUMMARY OF RESULTS
The U.S. Government declared a disaster due to a complex emergency1 in Zimbabwe every
year between fiscal years 2002 and 2011. On October 18, 2001, the U.S. Ambassador to
Zimbabwe declared a disaster in response to the country’s food security crisis. The Fiscal Year
2002 Annual Report for USAID’s Office of Foreign Disaster Assistance (OFDA) in the Bureau for
Democracy, Conflict and Humanitarian Assistance (DCHA) notes that the complex food security
emergency was “caused by a combination of factors, including drought, political violence, and
the Government of Zimbabwe’s chaotic seizures of once productive commercial farms.” After
the drought subsided, the other problems persisted. For example, the 2006 OFDA annual
report notes that although Zimbabwe received favorable rains in 2005 and 2006, many
Zimbabweans faced emergency conditions due to an 80 percent unemployment rate,
hyperinflation, and limited access to basic social services. This complex emergency was further
exacerbated by political violence during the 2008 presidential and legislative elections, which
displaced some 30,000 people according to the United Nations Office for the Coordination of
Humanitarian Affairs. From August 2008 to July 2009, Zimbabwe’s poorly maintained water and
sanitation infrastructure and fragile health system led to 98,600 cases of cholera, resulting in
nearly 4,300 deaths (concentrated approximately as shown below).

              Areas of Zimbabwe Affected by Cholera, August-December 2008




      Source: United Nations Office for the Coordination of Humanitarian Affairs.

1
   According to Chapter 251 of USAID’s Automated Directives System (ADS), a disaster declaration is a
written determination by a U.S. Ambassador or designee of the Secretary of State that “a disaster exists
in the host country which meets three criteria: it is of a magnitude with which the affected community
cannot cope; recognized representatives of the affected population desire the assistance; and it is in the
USG’s [U.S. Government’s] interests to respond.” ADS Chapter 251 defines a complex emergency as
“[a] disaster, usually of long term duration, that includes a combination of humanitarian, political and
military dimensions which hinders the provision of external relief.”



                                                                                                        1
Conditions began to improve in 2010, and the U.S. Ambassador to Zimbabwe decided not to
reissue a disaster declaration in October 2011.

To address these emergencies, OFDA spent over $100 million in Zimbabwe between 2002 and
2011. In fiscal year 2011, USAID provided $13 million through OFDA to support agriculture and
food security; protect urban livelihoods and vulnerable populations; and support water,
sanitation, and hygiene activities. The scope of the audit included all of the projects that were
not implemented by public international organizations (such as United Nations organizations)
and were active as of February 2012. The audited projects totaled $6.5 million and are
described below:

    Rural Water Supply and Treatment Infrastructure and Hygiene Promotion in Gokwe
    North District. On February 9, 2011, USAID/DCHA/OFDA awarded $1,206,694 to Medair
    International to address the risk of waterborne diseases through the provision of protected
    hand-dug wells, rehabilitation of protected and unprotected wells, and provision of rainwater
    harvesting tanks to schools in ten wards of Gokwe North District (pictured on page 3).

    Water and Hygiene Promotion Project—Phase II.                  On             August 9, 2011,
    USAID/DCHA/OFDA awarded $569,000 to Adventist Development                    and Relief Agency
    International to establish community and school health clubs, build          reinforced rainwater
    harvesting tanks for schools and communities, and promote improved           water treatment and
    storage.

    Scaling Up Point-of-Use Water Treatment and Hygiene.              On July 28, 2011,
    USAID/DCHA/OFDA awarded $1,098,415 to Population Services International to expand
    behavior change communication and sustain nationwide delivery of WaterGuard, which was
    launched under a prior USAID/DCHA/OFDA grant.2

    Mitigation of Risks of Waterborne Disease Outbreaks Focusing on Community
    Adoption of Household Water Treatment Practices in Manicaland Province. On July 7,
    2011, USAID/DCHA/OFDA awarded $500,000 to International Rescue Committee to employ
    social marketing techniques to promote the use of WaterGuard for treating drinking water in
    four districts of Manicaland Province.

    Promoting Improved Hygiene and Sanitation.                      On February 22, 2011,
    USAID/DCHA/OFDA awarded $643,188 to International Medical Corps to build the capacity
    of communities to implement their own interventions, mobilizing locally available resources
    and contributing labor to construct latrines and hand-washing facilities.

    Food Security Support Project. On August 2, 2011, USAID/DCHA/OFDA added
    $1,420,714 to its grant to GOAL (a relief and development organization based in Ireland),
    which started on June 29, 2010. The additional funding in fiscal year 2011 made it possible
    to increase the number of farmers receiving support from 5,000 to 12,000. Support included
    training on conservation farming, 12,000 specially designed hoes, and 7,000 farming supply
    vouchers each worth $80.


2
 WaterGuard is a brand name of sodium hypochlorite solution (NaOCI) manufactured and distributed by
Population Services International with 1.25 percent available chlorine and pH raised above 11 to ensure
adequate shelf life.



                                                                                                     2
   Non-Governmental Organization Joint Initiative for Urban Zimbabwe: Community
   Based Support to Vulnerable Urban Populations.                     On July 19, 2011,
   USAID/DCHA/OFDA awarded $1,095,732 to Mercy Corps to promote, improve, and protect
   sustainable livelihoods for urban and peri-urban communities in Zimbabwe through effective
   response and information coordination.




A school rainwater harvesting tank (left) and a hand-dug well (right), both built by Medair
International, help reduce waterborne diseases. (Photos by RIG/Pretoria, Gokwe North District,
January 26, 2012)

In fiscal year 2012, OFDA operations in Zimbabwe shifted from activities under a state of
disaster response to risk reduction programming. The current risk reduction strategy covers a
3-year period, fiscal years 2012 to 2014. The stated goal of this strategy is to “reduce risk
through enhanced institutional and community capacities to respond to and mitigate the effects
of disasters, strengthen the resiliency of vulnerable communities, and reduce exposure to
hazards.” For example, the strategy states that water and hygiene activities will include skills
training for purifying water for household use and the construction of rainwater harvesting tanks.

The Regional Inspector General/Pretoria conducted this audit to determine whether
USAID/DCHA/OFDA’s activities in Zimbabwe were achieving their goal of mitigating the effects
of the country’s complex emergency.

On the basis of limited site visits and interviews conducted, the audit determined that the project
was mitigating the ongoing effects of the complex emergency in Zimbabwe. Specifically, the
digging of wells and, to a lesser extent, the construction of rainwater harvesting tanks increased
the availability of clean drinking water; the promotion of sanitation and hygiene increased
awareness of the risks of disease; the introduction of WaterGuard began to provide a
commercially available product for households to use to treat their water; and the distribution of
inputs and promotion of conservation farming resulted in increased food availability.

However, the audit noted that OFDA does not have a systematic way to determine whether its
activities are working (page 5). Because it provides disaster relief, OFDA has been exempted
from having performance monitoring plans. Yet for long-term risk reduction programming, it
needs a monitoring and evaluation system to guide strategic decisions about activities in
Zimbabwe and measure their effectiveness.


                                                                                                 3
To address this issue, this report recommends that USAID/DCHA/OFDA:

1. Conduct an independent evaluation of key programmatic decisions regarding the complex
   emergency in Zimbabwe to determine whether OFDA is allocating resources to projects that
   are demonstrating meaningful results (page 7).

2. Develop a timeline for the implementation of a monitoring and evaluation system for its
   disaster risk reduction activities in Zimbabwe (page 7).

We are also making a recommendation in a supplement to this report with limited distribution, as
publically disclosing sensitive information contained in the supplement may be harmful to
grantee operations or personnel.

The detailed finding appears in the following section, and a description of the audit scope and
methodology appears in Appendix I. Management comments are in Appendix II, and our
evaluation of management comments is included on page 8 of the report.




                                                                                              4
AUDIT FINDING
The Office of Foreign Disaster
Assistance Does Not Have a
Systematic Way to Determine
Whether Its Activities Are Working
On September 22, 2010, the White House issued a fact sheet on U.S. Global Development
Policy, which states that the United States will “set in place rigorous procedures to evaluate the
impact of policies and programs, report on results and reallocate resources accordingly.” In
response to this policy, USAID notes on its Web site that it is “strengthening performance
monitoring and impact evaluation capabilities so [it] can easily identify what works, what doesn't
and why.” Further, USAID notes that it will emphasize effective resource management in order
to allocate “resources toward programs that are demonstrating meaningful results.” Effective
monitoring and evaluation strategies are key to achieving these objectives.

Nevertheless, OFDA does not have a comprehensive monitoring and evaluation system to
determine the success of its activities. While OFDA officials conducted periodic site visits and
received information from grantee monitoring and evaluation systems on the status of activities
in Zimbabwe, OFDA had no comprehensive system for assessing whether these activities were
appropriate or successful. As a result, OFDA may have based programming decisions on
untested information and been unaware of deficiencies of implemented activities.

For example, OFDA’s strategy for disaster risk reduction emphasizes rainwater harvesting tanks
rather than wells. An OFDA official noted that this decision was made because well pumps tend
to break if they are not maintained regularly. Therefore, the underlying assumption to this
decision is that well pumps break more frequently than rainwater harvesting tanks. However,
during site visits, auditors found that 5 of 14 recently constructed USAID rainwater harvesting
tanks were no longer functional or were not being maintained to allow maximum clean water
collection and retention. Two other tanks (pictured on the following page) had not been
constructed properly to prevent leaks, although the grantee was confident that the concrete
would cure properly.3 Notably, only 3 of these 14 tanks were constructed before fiscal year
2011. Meanwhile, all five OFDA-constructed hand-dug wells observed during site visits were
functional. OFDA officials were unaware of the problems with the rainwater harvesting tanks
before this audit.

Another reason for emphasizing rainwater harvesting tanks was to mitigate cholera outbreaks.
Although clean water sources (both tanks and wells) help prevent cholera, rainwater harvesting
tanks would likely not mitigate a large cholera outbreak, such as the one in 2008-2009. In
general, rainwater harvesting tanks collect water only during the rainy season. Water collected
by a tank may then be consumed in a matter of days or weeks, depending on the size of the
tank and the number of beneficiaries, while wells provide water throughout the year. However,
the cholera outbreak of 2008-2009 (one of the worst in a century) started in August, one of the


3
 Curing newly placed concrete requires maintaining a favorable moisture content and temperature.
Neglecting to cure concrete properly can irreparably damage the structure’s ability to retain water.



                                                                                                  5
driest months of the year, when the rainwater harvesting tanks would likely have been empty or
at low levels.




The rainwater harvesting tank at left, built by Adventist Development and Relief Agency
International, did not cure properly and shows water seeping through the side. The school
rainwater harvesting tank at right, built by Medair International, has a broken tap. (Photos by
RIG/Pretoria, Gokwe North District, January 26-27, 2012)

Related to other project site visits, a private chemistry lab contracted by the audit found that 2 of
14 water samples collected from USAID-sponsored tanks and wells tested positive for coliform
bacteria, indicating that some beneficiaries were drinking potentially unsafe water. Additionally,
beneficiaries trained by OFDA grantees did not build some latrines at the recommended
distance from their water source.

To allow OFDA to respond to emergencies, USAID exempts the office from some management
requirements, like performance monitoring plans and data quality assessments. OFDA lacks a
systematic monitoring system because it is designed to respond quickly to disasters. However,
when OFDA engages in long-term, disaster risk-reduction programming designed for
sustainability, this rationale is no longer valid.

By not monitoring or evaluating the strategic decisions made for activities in Zimbabwe, OFDA
may be investing in strategies that do not work. This use of resources without effective
monitoring and evaluation undermines the President’s global development emphasis on
determining “what works, what doesn’t and why.” The new 3-year risk reduction strategy gives
OFDA an opportunity to implement a systematic monitoring plan to evaluate performance. Such
a plan would make OFDA more aware of issues like the deficiencies discussed above. The
resulting monitoring and evaluation system would allow lessons learned to be incorporated into
future activities. Accordingly, the audit makes the following recommendations.




                                                                                                   6
Recommendation 1. We recommend that the Office of Foreign Disaster Assistance
conduct an independent evaluation of key programmatic decisions regarding the
complex emergency in Zimbabwe to determine whether the office is allocating resources
to projects that are demonstrating meaningful results.

Recommendation 2. We recommend that the Office of Foreign Disaster Assistance
develop a timeline for the implementation of a monitoring and evaluation system for its
disaster risk reduction activities in Zimbabwe.




                                                                                          7
EVALUATION OF MANAGEMENT
COMMENTS
In its comments on the draft report, USAID/DCHA/OFDA agreed with both recommendations,
and management decisions have been reached on them. Our evaluation of management
comments follows.

Recommendation 1. USAID/DHCA/OFDA agreed to conduct an independent evaluation of the
activities in Zimbabwe by April 16, 2013. In addition, management responded to our analysis of
the water, sanitation, and hygiene programs in the report. These are all factors that should be
considered by the evaluation team, but we have not modified the body of the report.

Recommendation 2. USAID/DCHA/OFDA agreed to prepare a timeline for the implementation
of a monitoring and evaluation system for its disaster risk reduction activities in Zimbabwe by
December 16, 2012. In addition, management elaborated on the grantees’ monitoring and
evaluation systems, which the report briefly notes on page 5. Therefore, no change has been
made to the audit report in response to these comments.




                                                                                             8
                                                                                       Appendix I



SCOPE AND METHODOLOGY
Scope
The Regional Inspector General/Pretoria conducted this performance audit in accordance with
generally accepted government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions in accordance with our audit objective. We believe that the evidence
obtained provides that reasonable basis.

The objective of this audit was to determine whether USAID/DCHA/OFDA’s activities in
Zimbabwe were achieving their goal of mitigating the effects of the country’s complex
emergency.

Audit fieldwork took place from January 17 to February 14, 2012, and included all OFDA
activities funded under the fiscal year 2011 budget that were not implemented by public
international organizations and were ongoing as of our audit fieldwork. OFDA’s fiscal year 2011
budget for Zimbabwe was $13 million. Of this amount, we included $6.5 million, or 50 percent
of the funding for Zimbabwe, in the audit scope.

In addition to answering the audit objectives, the audit team assessed internal controls related
to data quality, ongoing monitoring, reporting, and evaluations. In planning and performing the
audit, we reviewed the following:

      The fiscal year 2011 Federal Managers’ Financial Integrity Act of 19824 certification for
      OFDA.

      OFDA’s exemptions from U.S. Government and USAID regulations, including sanctions on
      public figures in Zimbabwe; restrictions on working with the government; and standard
      USAID rules about planning, monitoring, and acquisition.

      The 2011 edition of the Humanitarian Charter and Minimum Standards in Humanitarian
      Response handbook, published by the Sphere Project.

      OFDA Guidelines for Unsolicited Proposals and Reporting, October 2008.

      Grantee and quarterly progress reports for fiscal year 2011.

      Grantee proposals, USAID technical comments on those proposals, and the final grant.

      Budgets for the funding provided to grantees.

We also interviewed key USAID/Southern Africa, USAID/DCHA/OFDA, and USAID/Zimbabwe
personnel, grantee personnel, local Government of Zimbabwe officials, U.S. Embassy officials
in Harare, and beneficiaries. Sampling was done on a judgmental basis because grantee

4
    Public Law 97-255, codified in 31 U.S.C. 3512.



                                                                                                9
                                                                                           Appendix I


activities were either not numerous enough to justify statistical sampling or covered too vast an
area. We reviewed the significant partner activities in 22 of 119 district wards where OFDA
activities were ongoing. We visited seven grantee offices in Harare and conducted meetings to
learn about their operations.       We conducted the audit at USAID/Southern Africa,
USAID/Zimbabwe, grantee offices in Harare, and partner activity locations in the Manicaland,
Mashonaland Central, Mashonaland West, and Midlands Regions.

Methodology
To answer the audit objectives, the Regional Inspector General/Pretoria identified the current
USAID/DCHA/OFDA activities in Zimbabwe intended to address the complex emergency. We
identified the process used by OFDA to issue grants to address the complex emergency. Our
review of this process included reviewing the unsolicited proposals prepared by the grantees,
the technical comments sent back by OFDA, and the final proposals prepared by the grantees.

We reviewed the budgets prepared by the grantees and determined whether the allocation of
funding was reasonable given the goal of their activity and the allocation used by other partners
for similar activities. If there were differences, we talked with partners to learn the reason for
these differences.

We met with grantees at their offices in Harare to discuss their experience with OFDA and
determine how their activities were addressing the complex emergency.

We also reviewed quarterly reports and corresponded with grantees to identify their major
deliverables. We conducted site visits to verify that these deliverables were provided, accepted
by the community, and of high quality (according to applicable disaster assistance guidelines).
To determine whether the communities accepted the deliverables, we talked with members of
the communities. Our review of the quality of the deliverables included contracting a private lab
in Harare to test water samples from wells and rainwater catchment devices, and verifying that
latrines would not contaminate the wells or other means by which the communities collected
water.

Sites visited were judgmentally selected for all of the activities except for Population Services
International, which operates primarily in Harare; and Mercy Corps, which directly operates only
one office in Mutare (other program activities are operated through subgrantees).

The audit team’s primary concern when choosing sites to visit was maximizing the number and
types of activities funded by USAID/DCHA/OFDA that we could observe. In addition, the audit
team prioritized activities with higher levels of funding, easier access (largely based on proximity
to major roads), proximity to other activities, and overlap with other programs, given the
potential for duplication of efforts. In total, we visited activities in 22 of 119 district wards where
activities operate.

After understanding the quantity, quality, and geographic coverage of the deliverables, as well
as the efficiency and effectiveness of activities, the audit determined that the activities were
mitigating the ongoing effects of the complex emergency in Zimbabwe.

The audit did not rely on performance indicators because the performance indicators did not
address the audit objective. Therefore, the audit did not establish any materiality thresholds.




                                                                                                    10
                                                                                                 Appendix II



MANAGEMENT COMMENTS
April 16, 2012

MEMORANDUM

TO:              Regional Inspector General/Pretoria, Christine M. Byrne

FROM:            Director, Bureau of Democracy, Conflict, and Humanitarian Assistance (DCHA), Office of
                 U.S. Foreign Disaster Assistance (OFDA), Mark Bartolini

SUBJECT:         Audit of USAID’s Complex Emergency Project in Zimbabwe Managed by the Office of
                 U.S. Foreign Disaster Assistance

This memorandum transmits the USAID/DCHA/OFDA response to the draft report on the subject audit.
USAID/OFDA concurs with the two audit recommendations, and details on the management decisions
and target completion dates are provided below. In addition, USAID/OFDA is providing the following
further information to clarify or update on the audit findings related to the two recommendations.

Recommendation 1: We recommend that USAID/DCHA/OFDA conduct an independent evaluation of
key programmatic decisions regarding the complex emergency in Zimbabwe to determine whether
OFDA is allocating resources towards projects that are demonstrating meaningful results.

Management Decision: USAID/OFDA’s management concurs with the recommendation to conduct an
independent evaluation of the key WASH programmatic decision in Zimbabwe noted in the text. The
target completion date for this evaluation is April 16th, 2013.

In regards to the findings related to water, sanitation, and hygiene (WASH) programming, USAID/OFDA
has followed up with the two non-governmental organization (NGO) partners that constructed WASH
infrastructure assessed by the audit team. Both NGOs indicated that repairs are either underway or
already completed on the tanks with issues identified in the audit. Prior to the audit, Medair
International had reported that minor repairs were needed on several tanks, which would be completed
in the final quarter of the grant. The Adventist Development and Relief Agency (ADRA) noted that the
certain ferro-cement tanks constructed earlier in the project did not cure properly due to the high clay
content of local sand used in the plastering mixture. The tanks in question have since been repaired by
removing the initial plastering where the tank wall met the base slab, and replastering with the proper
ferro-cement mixture. ADRA also added training for community builders on the importance of sieving
the sand to remove clay particles.

The audit findings noted that two of 14 water samples from WASH infrastructure tested positive for
coliform bacteria. Typically, a positive test for total coliforms is followed by a subsequent test to isolate
and enumerate thermotolerant, fecal coliforms in order to fully assess the public health risks. This is
particularly necessary in the tropics where many bacteria of no sanitary significance occur in almost all
untreated community water supplies. Given that, in the case of these two positive tests, it is difficult to
infer more.




                                                                                                           11
                                                                                            Appendix II


In addition to source water quality, USAID/OFDA recognizes that post-collection water handling
behaviors are a prime source of contamination of drinking water supplies. As such, USAID/OFDA places
special emphasis on the quality of household water supplies requiring all grantees constructing or
rehabilitating water sources to report against the standard indicator “Number and percent of household
water supplies with 0 coliform bacteria per 100ml.” Both grantees reported on water testing during the
program period, using DelAgua kits to conduct tests for coliform bacteria. In addition, all partners
include hygiene education for all project beneficiaries. USAID/OFDA also encourages all partners to
stress the importance of point-of-use water treatment for all household drinking water supplies, using
low-cost water treatment products available on the local market, such as PSI’s Waterguard.

The findings also note that rainwater harvesting tanks could not mitigate against waterborne disease if,
as in the case of the 2008/2009 cholera outbreak, the disease began to spread in the dry season when
tanks would be either empty or at their lowest levels. The 2008/2009 cholera outbreak was exceptional
in part because the first cases were reported in August 2008, but according to the U.N. World Health
Organization approximately 11,700 cases occurred from August to November 30, with the remaining
more than 86,000 cases occurring after the end of November. November is generally the beginning of
the rainy season in Zimbabwe, so the period of highest risk for most Zimbabweans coincided with the
rainy season in the case of this major outbreak as well. Therefore, while rainwater harvesting tanks may
not be able to fully mitigate against disease risk during the dry season, this intervention is meant to
address the highest risk period, during the rainy season, when the tanks will have a renewable source of
water even with heavy use.


Recommendation 2: We recommend that USAID/DCHA/OFDA develop a timeline for the
implementation of a monitoring and evaluation system for its disaster risk reduction activities in
Zimbabwe.

Management Decision: USAID/OFDA’s management concurs with the recommendation to develop a
timeline for the implementation of a monitoring and evaluation system for USAID/OFDA’s Zimbabwe
programs. The target completion date is December 16th, 2012.

In regards to program monitoring-related findings, USAID/OFDA has the following monitoring and
evaluation systems in place for grants in Zimbabwe. As stated in the USAID/OFDA Guidelines for
Unsolicited Proposals and Reporting, all potential grantees are required to provide information on
planned monitoring and evaluation as part of their grant proposal. All seven NGO grantees included in
the audit report provided information on their internal program monitoring and evaluation. In addition,
USAID/OFDA encourages independent evaluations of programs. Five of the seven grantees audited
included external program evaluations in their grants, while two grantees also included additional
research studies related to the program. Project sites and grantees have also been visited by
USAID/OFDA field staff and headquarters staff, including technical specialists.




                                                                                                     12
U.S. Agency for International Development
       Office of Inspector General
      1300 Pennsylvania Avenue, NW
          Washington, DC 20523
            Tel: 202-712-1150
            Fax: 202-216-3047
           www.usaid.gov/oig
